No. 19-605
In the

Supreme Court of the United States
__________________

STATE OF ARIZONA,
Petitioner,
v.
PHILIP JOHN MARTIN,
Respondent.
__________________
On Petition for Writ of Certiorari to the
Arizona Supreme Court

__________________

BRIEF OF KENTUCKY, ALABAMA, ARKANSAS,
LOUISIANA, MISSOURI, NEBRASKA, OHIO,
OKLAHOMA, SOUTH CAROLINA, SOUTH DAKOTA
AND UTAH AS AMICI CURIAE SUPPORTING
PETITIONER

__________________

DANIEL CAMERON
Attorney General
of Kentucky
S. CHAD MEREDITH
Solicitor General
Counsel of Record
MATTHEW F. KUHN
Deputy Solicitor General
BRETT R. NOLAN
Special Litigation Counsel

KEN W. RIGGS
COURTNEY J. HIGHTOWER
JESSE L. ROBBINS
CHRISTOPHER L. HENRY
Assistant Attorneys General
Office of the Kentucky
Attorney General
700 Capital Avenue
Suite 118
Frankfort, Kentucky 40601
(502) 696-5300
chad.meredith@ky.gov

Counsel for Amici Curiae
February 5, 2020
Becker Gallagher · Cincinnati, OH · Washington, D.C. · 800.890.5001

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . . ii
INTERESTS OF AMICI CURIAE . . . . . . . . . . . . . . . 1
SUMMARY OF THE ARGUMENT. . . . . . . . . . . . . . 2
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I. The decision below threatens, in practical effect,
to take away states’ ability to choose between
hard-transition and soft-transition jury
instructions . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
II. This case presents a compelling opportunity for
the Court to clarify its decisions on implied
acquittals and deadlocked juries . . . . . . . . . . . . 10
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15

ii
TABLE OF AUTHORITIES
CASES
Brazzel v. Washington,
491 F.3d 976 (9th Cir. 2007). . . . . . . . . . . . . . . . 12
Burks v. United States,
437 U.S. 1 (1978). . . . . . . . . . . . . . . . . . . . . . . . . . 5
Cleary v. State,
23 N.E.3d 664 (Ind. 2015). . . . . . . . . . . . . . . . . . 11
Justices of Boston Mun. Court v. Lydon,
466 U.S. 294 (1984). . . . . . . . . . . . . . . . . . . . . . . . 5
Kansas v. Carr,
136 S. Ct. 633 (2016). . . . . . . . . . . . . . . . . . . . . . 13
Kansas v. Glover,
No. 18-556, petition for writ of certiorari
granted, 139 S. Ct. 1445 (Apr. 1, 2019) . . . . . . . 13
Oregon v. Ice,
555 U.S. 160 (2009). . . . . . . . . . . . . . . . . . . . . . . 10
People v. Boettcher,
505 N.E.2d 594 (N.Y. 1987) . . . . . . . . . . . . . . . . . 7
People v. Fields,
914 P.2d 832 (Cal. 1996). . . . . . . . . . . . . . . . . . . 11
Richardson v. United States,
468 U.S. 317 (1984). . . . . . . . . . . . . . . . . . . passim
State v. Davis,
266 S.W.3d 896 (Tenn. 2008) . . . . . . . . . . . . . . . . 5

iii
State v. Ervin,
147 P.3d 567 (Wash. 2006) . . . . . . . . . . . . . . . . . . 5
State v. Glassman,
349 P.3d 829 (Wash. 2015) . . . . . . . . . . . 11, 14, 15
State v. Labanowski,
816 P.2d 26 (Wash. 1991) . . . . . . . . . . . . . . . 6, 7, 8
State v. Martin,
446 P.3d 806 (Ariz. 2019) . . . . . . . . . . . . . . . . . 3, 4
State v. Martinez,
905 P.2d 715 (N.M. 1995) . . . . . . . . . . . . . . . . . . 11
United States v. Allen,
755 A.2d 402 (D.C. 2000) . . . . . . . . . . . . . . . . . . 12
United States v. Bordeaux,
121 F.3d 1187 (8th Cir. 1997). . . . . . . . . . . . . . . 11
United States v. Tsanas,
572 F.2d 340 (2d Cir. 1978) . . . . . . . . . . . . . . . . . 7
Virginia v. LeBlanc,
137 S. Ct. 1726 (2017). . . . . . . . . . . . . . . . . . 14, 15

1
INTERESTS OF AMICI CURIAE1
The amici States have the prerogative to determine
what jury instructions are used in their courts. When
it comes to criminal trials, nearly all states use some
kind of transition instruction to inform juries how they
should proceed from considering a greater offense to a
lesser-included offense. Some of these states use “hard
transitions,” while others employ “soft transitions.”
Hard-transition instructions require juries to acquit a
defendant on a greater offense before returning a
verdict on a lesser-included offense, whereas softtransition instructions allow juries to proceed to a
lesser-included offense without first having to acquit on
the greater offense. States that have chosen between
the two types of transitions have done so based on
largely settled expectations as to how each transition
will affect various policy considerations. The Arizona
Supreme Court’s decision below threatens to disrupt
those settled expectations.
Because the decision below misapplied this Court’s
Double Jeopardy Clause jurisprudence as it relates to
soft-transition instructions—and did not base its
decision on any Arizona law—it not only created a
conflict with other courts’ applications of the same law,
but it also established a troubling precedent that might
lead other courts astray in the future. As a result,
some states that would otherwise prefer to keep their
current jury-instruction regimes might nevertheless

1

Amici have notified counsel for all parties of their intention to file
this brief, and counsel for all parties have consented to the filing
of this brief.

2
change them to avoid the Double Jeopardy problems
that might arise if their courts adopt Arizona’s
misapplication of this Court’s Double Jeopardy Clause
jurisprudence. The amici States have a strong interest
in ensuring that they—and all other states—are able to
craft jury instructions based on accurate expectations
about how those instructions will affect the various
policy considerations at stake, including the ability to
re-try defendants following a vacated conviction.
SUMMARY OF THE ARGUMENT
States have always had significant leeway to
prescribe whatever jury instructions best comport with
their laws and public policy preferences. In the
criminal arena, some states have determined that “soft
transition” instructions work best for them, while other
states have concluded that “hard transition”
instructions work best. Arizona is a “soft transition”
state. But, as a result of the wayward precedent
established in the decision below, states might feel
compelled to switch to hard transitions in order to
better protect their interests in obtaining decisions on
the merits with respect to all charged offenses.
States should not be put in the position of having to
choose between their legitimate policy preferences and
their desire for the maximum opportunity to obtain
decisions on the merits. But the decision below
threatens to put states in just that position. And, in
doing so, it jeopardizes the states’ traditional
prerogative to prescribe their own jury instructions.
This Court should step in to clarify the law so that
states will be able to continue adopting their own jury
instructions based on the previously settled

3
expectations about how particular instructions will
affect various policy considerations.
This Court should also grant Arizona’s Petition
because states need clarity about what constitutes an
implied acquittal.
The decision below creates
significant confusion on this issue. This Court should
use this case to explain precisely what constitutes an
implied acquittal. And, in doing so, it should reiterate
what nearly every other court has held—i.e., that a
defendant can be re-tried on a greater offense when the
original jury deadlocked on that offense and rendered
a conviction on a lesser-included offense that was
ultimately vacated.
ARGUMENT
When a criminal defendant is acquitted of a charge,
the Double Jeopardy Clause bars the defendant from
being tried again on that same charge. This is
elementary. And it is equally elementary that Double
Jeopardy does not necessarily bar re-trial when a jury
deadlocks and is unable to reach a verdict on a
particular charge. See Richardson v. United States,
468 U.S. 317, 325 (1984). Nevertheless, the decision
below struck out on a different path.
In the decision below, the Arizona Supreme Court
was confronted with a situation where the original jury
convicted a defendant on a lesser-included offense after
expressly deadlocking on the greater offense. See State
v. Martin, 446 P.3d 806, 807 (Ariz. 2019). After the
lesser-included conviction was vacated on appeal, the
state re-tried the defendant on the greater offense. Id.
Even though the original jury had expressly deadlocked

4
on the greater offense—and thus clearly had not
acquitted the defendant—the Arizona Supreme Court
held that this Court’s Double Jeopardy Clause
jurisprudence barred re-trial on that offense. See id. at
808–11. Thus, the decision below effectively treated
the deadlocked jury as having implicitly acquitted the
defendant.
That decision is an outlier and causes at least two
problems that the Court should address. First, it
threatens the efficacy of soft-transition jury
instructions, thereby potentially forcing states to
choose hard transitions when they might otherwise
prefer soft transitions. Second, the Arizona Supreme
Court’s rule creates uncertainty about what constitutes
an implied acquittal.
I. The decision below threatens, in practical
effect, to take away states’ ability to choose
between hard-transition and soft-transition
jury instructions.
From the states’ perspective, the ultimate concern
in this case is the interplay between jury instructions
and the Double Jeopardy Clause. Specifically, states
need clarity as to the double-jeopardy ramifications of
soft-transition instructions so that they can make
adequately informed decisions about the kinds of
instructions to use in their courts. As it stands, the
Arizona Supreme Court’s application of this Court’s
double-jeopardy jurisprudence creates significant
confusion and threatens to force states to adopt hardtransition instructions when they might otherwise
prefer soft transitions.

5
1. The Double Jeopardy Clause provides: “[N]or
shall any person be subject for the same offence to be
twice put in jeopardy of life or limb.” U.S. Const.
amend. V. This clause prevents criminal defendants
from being re-tried for an offense after there has been
an event that terminates the original “jeopardy” for
that offense. See Richardson, 468 U.S. at 325. An
acquittal is such an event. See id. However, it is well
established that jeopardy does not terminate when a
jury is unable to agree on a verdict. See id. And, it is
likewise well established that a defendant can be retried for the same offense following a reversal or
vacatur of a conviction on appeal. In such instances,
jeopardy “continues” through re-trial rather than
terminating with the original verdict. See Justices of
Boston Mun. Court v. Lydon, 466 U.S. 294, 308 (1984);
Burks v. United States, 437 U.S. 1, 14 (1978). Thus, it
has been widely understood that if a jury deadlocks on
a greater offense while convicting on a lesser-included
offense, double jeopardy will not bar the defendant’s retrial on the greater offense if the conviction on the
lesser-included offense is subsequently vacated. See,
e.g., State v. Ervin, 147 P.3d 567, 572 (Wash. 2006).
States have crafted their criminal jury instructions
against this backdrop. In doing so, most states have
elected to provide juries with either a “hard” transition
or a “soft” transition when instructing them about how
to proceed from considering a greater offense to
considering a lesser-included offense. Hard-transition
instructions require jurors to acquit a defendant of a
greater offense before moving on to consideration of a
lesser-included offense. See, e.g., State v. Davis, 266
S.W.3d 896, 905–06 (Tenn. 2008). Soft-transition

6
instructions, in contrast, permit jurors to consider a
lesser-included offense if they are unable to reach a
verdict on the greater offense despite having made
reasonable efforts to do so.
See, e.g., State v.
Labanowski, 816 P.2d 26, 36–37 (Wash. 1991).
Proponents of both types of instructions point to
various policy rationales for their preferred
instructions.
The Second Circuit has succinctly
summarized these policy considerations:
[A hard-transition instruction] has the merit,
from the Government’s standpoint, of tending to
avoid the danger that the jury will not
adequately discharge its duties with respect to
the greater offense, and instead will move too
quickly to the lesser one. From the defendant’s
standpoint, it may prevent any conviction at all;
a jury unable either to convict or acquit on the
greater charge will not be able to reach a lesser
charge on which it might have been able to
agree. But it entails disadvantages to both sides
as well: By insisting on unanimity with respect
to acquittal on the greater charge before the jury
can move to the lesser, it may prevent the
Government from obtaining a conviction on the
lesser charge that would otherwise have been
forthcoming and thus require the expense of a
retrial.
It also presents dangers to the
defendant. If the jury is heavily for conviction
on the greater offense, dissenters favoring the
lesser may throw in the sponge rather than
cause a mistrial that would leave the defendant
with no conviction at all, although the jury

7
might have reached sincere and unanimous
agreement with respect to the lesser charge.
An instruction permitting the jury to move on
to the lesser offense if after all reasonable efforts
it is unable to reach a verdict on the greater
likewise has advantages and disadvantages to
both sides the mirror images of those associated
with the charge actually given here.
It
facilitates the Government’s chances of getting
a conviction for something, although at the risk
of not getting the one that it prefers. And it
relieves the defendant of being convicted on the
greater charge just because the jury wishes to
avoid a mistrial, but at the risk of a conviction
on the lesser charge which might not have
occurred if the jury, by being unable to agree to
acquit on the greater, had never been able to
reach the lesser.
United States v. Tsanas, 572 F.2d 340, 346 (2d Cir.
1978) (footnote omitted). The Washington Supreme
Court has similarly observed that hard transitions
have the benefit of preventing juries from reaching
“compromise verdicts based on sympathy for
defendants or to appease holdout jurors,” see
Labanowski, 816 P.2d at 33 (citing People v. Boettcher,
505 N.E.2d 594, 597 (N.Y. 1987)), while a soft
transition “allows the jury to correlate more closely the
criminal acts with the particular criminal conviction,”
id. at 34. The Washington court also noted that soft
transitions promote judicial economy because “where
unanimity is required, the refusal of just one juror to
acquit or convict on the greater charge prevents the

8
rendering of a verdict on the lesser charge and causes
a mistrial even in cases where the jury would have
been unanimous on a lesser offense.” Id.
2. The point here is not necessarily that one type of
transitional instruction is inherently better than the
other. Rather, both types of instructions carry various
benefits, and—most importantly—states have the
prerogative to select the instruction that they prefer
based on the benefits that they value most highly.
Until now, states have been able to make that
choice based on largely settled expectations about the
double-jeopardy implications of their choice. States
choosing a soft transition could generally expect that
their choice would not bar the re-trial of a defendant on
a greater offense following a vacated conviction of a
lesser-included offense where the original jury was
deadlocked on the greater offense. As Arizona’s
Petition correctly points out, the overwhelming weight
of authority held that re-trial on the greater offense
was not barred by double jeopardy under such
circumstances. See Pet. at 19–27. Now, however, the
decision below has deepened a conflict in authority.
And that deepened conflict casts a pall on the states’
expectations about the double-jeopardy implications of
soft-transition instructions. It is now less certain that
a defendant can be re-tried on a greater offense under
the circumstances at issue here—i.e., where there is a
re-trial following a vacated conviction on a lesserincluded offense and the original jury expressly
deadlocked on the greater offense.
This uncertainty might lead states to conclude that
they have no choice but to adopt hard-transition

9
instructions. States have an obvious interest in
obtaining final decisions on the merits.
See
Richardson, 468 U.S. at 326. If soft-transition states
view the decision below as creating a trend that will
make it harder to re-try defendants on greater offenses,
then they might feel compelled to adopt hard-transition
instructions in order to avoid being deprived of
opportunities to obtain decisions on the merits of
greater offenses—as Arizona has been deprived here.
If states thus convert to hard-transition instructions, it
will not be because they have chosen to abandon the
policy preferences that led them to select soft
transitions to begin with. To the contrary, those states
will be abandoning soft transitions simply to avoid the
undesirable—and unnecessary—implications of the
decision below.
That is, the states would be
abandoning their preferred soft transitions just to
ensure a full opportunity to obtain a decision on the
merits of a greater offense in situations like the one in
this case—i.e., where the jury settles on a lesserincluded conviction after being unable to agree on the
greater offense, and the lesser-include conviction is
eventually vacated.
States should not be put in the position of having to
choose between their legitimate policy preferences and
their desire for the maximum opportunity to obtain a
decision on the merits with respect to all charged
offenses. Because the decision below threatens to put
states in that position, it jeopardizes their traditional
leeway to prescribe jury instructions for themselves.
This Court should step in to clarify the law so that
states will be able to continue adopting their own jury
instructions based on the previously settled

10
expectations about how particular instructions will
affect various policy considerations. If it does not,
states may find that their ability to choose between
hard- and soft-transition instructions has been negated
in practical effect. States should be able to craft their
jury instructions based on accurate expectations as to
how those instructions will affect the various policy
considerations at stake, including the ability to re-try
defendants on greater offenses following a vacated
conviction of a lesser-included offense. See Oregon v.
Ice, 555 U.S. 160, 170 (2009) (“Beyond question, the
authority of States over the administration of their
criminal justice systems lies at the core of their
sovereign status.”).
II. This case presents a compelling opportunity
for the Court to clarify its decisions on
implied acquittals and deadlocked juries.
The Arizona Supreme Court’s decision marks a
definitive split in authority on what constitutes an
implied acquittal under the Double Jeopardy Clause.
Make no mistake, the Arizona Supreme Court is now in
the shallow minority on this issue. Virtually every
court directly confronting the problem has reached the
opposite conclusion. But that makes this case the
perfect opportunity for the Court to clarify an issue
that lower federal courts and state Supreme Courts
have been wrestling with for years.
1. The split of authority on this issue is wide but
lopsided. As Arizona points out in its Petition, almost
every court addressing the issue of implied acquittals
in a similar circumstance has held that the Double
Jeopardy Clause does not bar re-trial when the jury

11
expressly indicates it cannot agree on a verdict. See
Pet. at 20–25.
Perhaps the best example of this is the Eighth
Circuit’s decision in United States v. Bordeaux, 121
F.3d 1187 (8th Cir. 1997), a case almost
indistinguishable from the facts below. In Bordeaux,
the United States charged the defendant with
attempted aggravated assault. The jury could not
agree on a verdict, but convicted the defendant of the
lesser-included charge of abusive sexual contact by
force. As in Arizona’s case, the jury used its verdict
form to explain its inability to agree. It wrote a note on
the form stating that it was “unable to reach a verdict
on the charge.” Id. at 1188. The Eighth Circuit looked
at the plain language of Richardson and concluded that
the Double Jeopardy Clause did not prohibit a re-trial
on the greater offense. It held that “[t]he jury’s express
statement that it could not agree on a verdict as to the
greater offense obviously precludes the inference that
there was an implied acquittal.” Id. at 1192.
The high courts of Washington, New Mexico,
California, and Indiana have reached the same
conclusion in similar cases. See Pet. at 20–21; State v.
Glassman, 349 P.3d 829, 833 (Wash. 2015); State v.
Martinez, 905 P.2d 715, 717 (N.M. 1995); People v.
Fields, 914 P.2d 832, 837 (Cal. 1996); Cleary v. State,
23 N.E.3d 664, 674 (Ind. 2015).2 So too the D.C. Court

2

The Indiana Supreme Court’s decision focuses primarily on
Indiana’s own provision against double jeopardy, but only after
first acknowledging that it mirrors the federal provision. See
Cleary, 23 N.E.3d at 674 n.7.

12
of Appeals. See United States v. Allen, 755 A.2d 402,
408 (D.C. 2000). The logic of these decisions need not
be restated at length: While an implied acquittal
might trigger the Double Jeopardy Clause, an express
statement disclaiming acquittal obviously should not.
That is consistent with Richardson, and until the
Arizona Supreme Court issued its ruling below, it was
consistent with almost every authority passing on the
question elsewhere.
Virtually alone in its decision, Arizona looked to the
Ninth Circuit to support its reasoning. See Pet. App. at
10. In Brazzel v. Washington, 491 F.3d 976 (9th Cir.
2007), the court granted a habeas petition on the basis
that the jury’s decision to leave a verdict form blank
amounted to an implied acquittal, triggering the
Double Jeopardy Clause. In that case, the jury
instructions directed the jury to leave the form blank
only if they could not agree on a charge. The Ninth
Circuit explained that a jury’s “inability to agree” on a
verdict “with the option of compromise on a lesser
alternative offense” is not the kind of circumstance that
Richardson identified as constituting a deadlocked
jury. Id. at 984. But, as Arizona notes in its Petition,
Brazzel had a limited scope. The state court had
already determined that the verdict form demonstrated
an implied acquittal, and so on collateral review the
Ninth Circuit was limited to the highly deferential
standard of review required by the Antiterrorism and
Effective Death Penalty Act (AEDPA). Brazzel did not
resolve the issue for the Ninth Circuit, and a future
panel of the court could chart a different course.

13
2. The Arizona Supreme Court’s departure from
the majority rule here leaves the states in doubt as to
what the Double Jeopardy Clause requires to avoid an
implied acquittal in trials involving multiple charges.
Two problems in particular arise from the conflict in
authority that this Court can resolve by granting
certiorari.
First, as is the case with any split of authority, the
Arizona Supreme Court’s decision creates confusion
about the meaning of the federal Constitution—here,
Fifth Amendment. This is particularly problematic
when, as here, state courts diverge over the meaning of
the federal Constitution. See Kansas v. Carr, 136 S. Ct.
633, 641–42 (2016). In such circumstances, this Court
has a heightened interest in ensuring that the state
court decisions are correct. Id. Incorrect interpretations
of the federal Constitution by state courts enables them
to deflect blame for unpopular decisions onto the “the
Federal Constitution when it is in fact their own
doing.” Id. at 642.
In this respect, Arizona’s Petition is on similar
footing as Kansas v. Glover, No. 18-556, petition for
writ of certiorari granted, 139 S. Ct. 1445 (Apr. 1,
2019).
Glover presents a question of federal
constitutional law about the requirements of the
Fourth Amendment for an investigative stop. Like this
case, Glover arose from a decision by a state supreme
court that went against the overwhelming majority of
decisions elsewhere. At the time of the petition for
certiorari, 12 state supreme courts and four federal
circuits had reached a different decision than the
Kansas Supreme Court on the Fourth Amendment

14
question at issue. This Court rightly granted certiorari
to correct the inconsistency, ensuring that the meaning
of the Fourth Amendment would not change from state
to state or court to court. Likewise, the states need
clear, consistent guidance about what constitutes an
implied acquittal under the Fifth Amendment.
Second, granting certiorari in this case will “spare”
the courts in states like Arizona, Washington, and
California from “having to confront” an inevitable
“legal quagmire” that results when the state’s highest
court reaches a different conclusion on a matter of
federal constitutional law than the federal appellate
court in which the state sits. See Virginia v. LeBlanc,
137 S. Ct. 1726, 1729–30 (2017).
The Arizona Supreme Court’s decision stands
squarely against decisions from both the California
Supreme Court and Washington Supreme Court. That
is particularly problematic because all three states are
located in the Ninth Circuit.
As explained above, the Ninth Circuit has
considered the issue of implied acquittals from softtransition instructions only on collateral review, and so
it has yet to establish any binding law of the circuit.
When it does, it will create a “legal quagmire” no
matter how it resolves the problem. If it declines to
follow Richardson and finds that soft-transition
instructions like those in Arizona lead to an implicit
acquittal, it will immediately place courts in
Washington and California on uneasy ground as they
attempt to apply the meaning of the Fifth Amendment
in the face of competing authorities.
As the
Washington Supreme Court explained in Glassman,

15
“the Ninth Circuit’s decisions are not binding” on the
state courts. 349 P.3d at 832. The result will be that
the federal constitutional rights of the citizens of
Washington or California will differ depending on
whether they are charged in state or federal court.
That cannot be allowed, and this Court has stepped in
to prevent precisely that kind of problem in the past.
See LeBlanc, 137 S. Ct. at 1729–30.
The Court can prevent any such quagmires by
granting certiorari and establishing a clear rule for the
states to follow. In so doing, it should follow its path in
Richardson and hold that jeopardy does not terminate
when the jury expressly states that it cannot agree on
a verdict.
CONCLUSION
The Court should grant Arizona’s Petition. The
states need clarity on the issues at stake here so that
they can adopt jury instructions based on accurate
understandings of this Court’s Double Jeopardy Clause
jurisprudence.

16
Respectfully submitted,
DANIEL CAMERON
Attorney General of
Kentucky
S. CHAD MEREDITH
Solicitor General
Counsel of Record
MATTHEW F. KUHN
Deputy Solicitor
General
BRETT R. NOLAN
Special Litigation
Counsel

KEN W. RIGGS
COURTNEY J. HIGHTOWER
JESSE L. ROBBINS
CHRISTOPHER L. HENRY
Assistant Attorneys General
Office of the Kentucky
Attorney General
700 Capitol Ave., Ste.118
Frankfort, KY 40601
(502) 696-5300
Chad.Meredith@ky.gov

Counsel for Amici Curiae

17
ADDITIONAL COUNSEL
STEVE MARSHALL
Attorney General of
Alabama

DAVE YOST
Attorney General of
Ohio

LESLIE RUTLEDGE
Attorney General of
Arkansas

MIKE HUNTER
Attorney General of
Oklahoma

JEFF LANDRY
Attorney General of
Louisiana

ALAN WILSON
Attorney General of
South Carolina

ERIC SCHMITT
Attorney General of
Missouri

JASON R. RAVNSBORG
Attorney General of
South Dakota

DOUGLAS J. PETERSON
Attorney General of
Nebraska

SEAN D. REYES
Attorney General of
Utah

